NO. 20-1080
___________
IN THE

SUPREME COURT OF THE UNITED STATES
_________________________________
STEPHEN EDWARD MAY, Petitioner,
v.
DAVID SHINN; MARK BRNOVICH, Attorney General,
Respondents.
_________________________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

_________________________________
BRIEF OF AMICUS CURIAE
NATIONAL ASSOCIATION FOR RATIONAL SEXUAL OFFENSE LAWS
IN SUPPORT OF PETITIONER STEPHEN EDWARD MAY

__________________________________
J. THOMAS SULLIVAN
MEMBER OF THE BAR OF THE
SUPREME COURT OF THE UNITED STATES

Counsel of Record
P.O. Box 17007
Little Rock, Arkansas 72222
501/376-6277
sullivanatty@gmail.com
Attorney for Amicus Curiae
National Association for
Rational Sexual Offense Laws

TABLE OF CONTENTS
Table of Cases and Authorities .

.

.

.

.

.

.

. ii-iv

Identity and Interest of Amicus Curiae.

.

.

.

.

.

.

1

Summary of Argument

.

.

.

.

.

.

.

.

.

2

Argument

.

.

.

.

.

.

.

.

.

3

Trial counsel’s deficient performance .

.

.

.

.

6

A.

.

1.

The Ninth Circuit’s decision reversing the grant of relief

2.

Counsel’s explanation for his failure to contest
the statutory scheme on due process grounds.

.

.

9

The “quintessential example of unreasonable
performance”.
.
.
.
.
.

.

.

11

.

.

16

3.

B.

.

A “reasonable probability of a different outcome” of
the proceeding
.
.
.
.
.
.

Conclusion .

.

6

.

.

.

.

.

.

.

.

.

23

Certificate of Compliance

.

.

.

.

.

.

.

.

25

Certificate of Service

.

.

.

.

.

.

.

.

26

.

i

TABLE OF CASES AND AUTHORITIES
UNITED STATES SUPREME COURT DECISIONS
Bobby v. Van Hook, 558 U.S. 4 (2009)

.

.

.

.

.

. 8, 16

Class v. United States, 138 S.Ct. 798 (2018) .

.

.

.

.

.

Hinton v. Alabama, 571 U.S. 263 (2014)

.

.

.

.

.

Kimmelman v. Morrison, 475 U.S. 365 (1986)

.

.

.

. 16, 21-22

Michigan v. Long, 463 U.S. 1032 (1983)

.

.

.

.

.

Mullaney v. Wilbur, 421 U.S. 684 (1975)

.

.

.

.

.

passim

Neder v. United States, 527 U.S. 1 (1999)

.

.

.

.

.

. 20

Patterson v. New York, 432 U.S. 177 (1977) .

.

.

.

.

passim

Strickland v. Washington, 466 U.S. 668 (1984)

.

.

.

.

passim

Von Moltke v. Gilles, 332 U.S. 308 (1948)

.

.

.

.

.

.

2

Williams v. Taylor, 529 U.S. 362 (2000)

.

.

.

.

.

.

16

May v. Ryan, 245 F.Supp.3d 1145 (D. Ariz. 2017) .

.

.

.

May v. Ryan, 766 Fed. Appx. 505 (9th Cir. 2019)

.

.

.

May v. Shinn, 954 F.3d 1194 (9th Cir. 2020) .

.

.

.

.

. 4, 5

State v. Berryman, 875 P.2d 850 (Ariz. App. 1994) .

.

.

.

.

State v. Bolivar, 477 P.3d 672 (Ariz. 2020) .

.

.

.

. 5-6

14

passim

.

9

LOWER FEDERAL COURT DECISIONS
passim
passim

STATE COURT DECISIONS

ii

.

21

Norton v. Superior Court in and for County of Maricopa,
829 P.2d 345 (Ariz. App. 1992) .
.
.
.

.

.

State v. Holle, 379 P.3d 197 (2016)

.

.

.

12

.

.

.

.

State v. Holle, 358 P.3d 279 (Ariz. App. 2015)

.

.

.

.

.

20

State v. Jensen, 785 P.2d 781 (Ariz. 1987)

.

.

.

.

.

12

State v. May, No. CR-12-0416-PR (Ariz. April 24, 2013)

.

.

. 9, 23

State v. May, 2012 WL 3877855, Not Published in P.3d
(Ariz. App. Sept. 12, 2012)
.
.
.
.

.

.

9, 22- 23

.

passim

State v. May, No. CR2006-030290-001 SE (Ariz. Super. Nov. 10, 2011)

. 9, 21

State v. May, No. CR2006-030290-001 SE (Ariz. Super. Jan. 4, 2011) .

.

9

State v. May, No. CR-08-0281-PR (Ariz. Feb. 9, 2000)

12

.

.

.

.

State v. May, 2008 WL 29171111, Not Reported in P.3d
(Ariz. App. 2008) .
.
.
.
.
.

.

.

11, 13

State v. Mincey, 636 P.2d 637 (1981) .

.

.

.

.

.

. 12

State v. Moya, 672 P.2d 964 (1983)

.

.

.

.

.

. 12

.

.

.

passim

.

State v. Sanderson, 898 P.2d 483 (Ariz. Ct. App. 1995)
STATE STATUTES
U.S. CONST., AMEND. VI .

.

.

.

.

.

.

.

. 4, 16

U.S. CONST., AMEND. XIV

.

.

.

.

.

.

.

passim

28 U.S.C. § 2254(d)(1)–(2) (2018).

.

.

.

.

.

.

9, 17

ARIZ. REV. STAT. § 13-101

.

.

.

.

.

.

.

iii

.

3

ARIZ. REV. STAT. § 13-205(A) .

.

.

.

.

.

.

. 4, 5

ARIZ. REV. STAT. § 13-1401(3) .

.

.

.

.

.

.

5, 17-18

ARIZ. REV. STAT. § 13-1407(A) .

.

.

.

.

.

.

.

9

ARIZ. REV. STAT. § 13-1407(E) , repealed, 2018 Ariz. Sess. Laws,
ch. 266, §§ 1, 2. .
.
.
.
.
.
.

.

passim

ARIZ. REV. STAT. § 13-1410(A) .

.

passim

.

.

iv

.

.

.

IDENTITY AND INTERESTS OF AMICUS CURIAE 1
The National Association for Rational Sexual Offense Laws (“NARSOL”) is
a national, nonprofit organization exclusively dedicated to advocating for rational,
evidence-based, sexual offense prevention policies that minimize unnecessary
collateral consequences while recognizing the need for public safety. It promotes
research into sexual offense recidivism, maintains and aggregates data on
recidivism and the efficacy of sexual offense registries, participates where
appropriate in litigation related to sex offender registry laws, and hosts conferences
around the country focusing on fact-based reform of sexual offense legislation.
NARSOL represents members of a particularly unpopular or hated group in
American society who deserve effective representation by counsel in order to
protect their right to due process of law, a right long recognized by this Court:
Undivided allegiance and faithful, devoted service to a client are
prized traditions of the American lawyer. It is this kind of service for
which the Sixth Amendment makes provision. And nowhere is this
service deemed more honorable than in case of appointment to
represent an accused too poor to hire a lawyer, even though the
accused may be a member of an unpopular or hated group, or may be
charged with an offense which is peculiarly abhorrent.
Von Moltke v. Gilles, 332 U.S. 308, 725-26 (1948) (Black, J.).

1

No counsel for a party authored this brief, in whole or in part. No person or
entity, other than amicus curiae, made a monetary contribution to the preparation
or submission of this brief. Counsel for Petitioner May and the Arizona Attorney
General Jim Nielsen consented to this filing on February 26, 2021. The petition
was filed on February 9th; this brief is due on March 11, 2021.
1

SUMMARY OF ARGUMENT
Arizona, alone among state jurisdictions, required the accused charged with
child molestation to disprove that he acted with a sexual intent or interest in
knowingly touching the genitalia, anus, or female breast of an individual under the
age of 15 years. This shifting of the burden to disprove a necessary element of the
prosecution’s case violated Stephen May’s right to due process of law in requiring
him to negate sexual intent or interest, described as an affirmative defense, by
Arizona courts prior to legislative repeal of the provision setting out this shift in
the burden of proof. Petitioner May’s trial counsel, while expressing his opinion
that the statutory affirmative defense violated due process, failed to take action
challenging the statute on federal constitutional grounds, resulting in procedural
default of a direct constitutional attack in the state courts, and thus, also precluding
federal review of his claim based on the application of the Arizona procedural
default rule.
In holding that counsel rendered effective assistance in a state postconviction, the state courts noted the procedural default, but held that counsel’s
performance was not unreasonable because an earlier version of the statutory
scheme had previously been upheld, precluding proof of a reasonable probability
of a different outcome had counsel challenged the statute. The District Court
granted federal habeas relief on May’s ineffective assistance claim, but the Ninth
2

Circuit, on rehearing, reversed the grant of relief. May now petitions for certiorari,
contesting the disposition on both the argument that counsel’s performance was
deficient and the deference the Ninth Circuit panel afforded the decisions of the
Arizona courts.
ARGUMENT
Arizona law provides that the purpose of statutes defining criminal offenses
lies, in part, in “proscribing conduct that unjustifiably and inexcusably causes or
threatens substantial harm to individual or public interests,” and affording “fair
warning of the nature” of the proscribed conduct.

ARIZ. REV. STAT. § 13-101(1)

and (2), respectively. Section 13-101 also provides:
It is declared that the public policy of this state and the general
purposes of the provisions of this title are:
....
3. To define the act or omission and the accompanying mental state
which constitute each offense and limit the condemnation of conduct
as criminal when it does not fall within the purposes set forth.
(emphasis added).
The United States District Court, the Honorable Neil V. Wake presiding,
granted Stephen May relief based on trial counsel’s ineffective assistance. May v.
Ryan, 245 F. Supp. 3d 1145 (D. Ariz. 2017). On appeal, the Ninth Circuit Court of
Appeals initially sustained the grant of relief on an alternative ground asserted in
May’s petition, but rejected by the District Court, 766 Fed. Appx. 505, 509 (9th Cir.

3

2019). On rehearing the panel reversed its decision and denied relief on all claims.
May v. Shinn, 954 F.3d 1194, 1208 (9th Cir. 2020).
NARSOL addresses Petitioner May’s third question presented in his
petition: Whether trial counsel’s failure to challenge the constitutionality of the
Arizona child molestation statute under which he was convicted reflected
ineffective assistance warranting relief under the Sixth Amendment based on
application of Strickland v. Washington, 466 U.S. 668 (1984).
Stephen May argued in state and federal post-conviction proceedings that
trial counsel rendered ineffective assistance based on counsel’s failure to challenge
the statute upon which he was charged as unconstitutional within the context of the
statutory scheme providing that an accused charged with sexual molestation of a
child is required to prove his lack of sexual intent as an affirmative defense.
The Ninth Circuit rejected May’s argument that trial counsel’s performance
was deficient in its initial panel decision, later confirmed on rehearing. Strickland
requires a showing both that counsel’s performance was both defective in falling
below “an objective standard of reasonableness,” 466 U.S. at 668, and that but for
counsel’s defective performance, there was a reasonable probability of a different
outcome of the proceeding.

Because the Ninth Circuit did not find that counsel

failed to provide reasonable representation, it did not address the issue of the

4

constitutionality of the Arizona child molestation statutory scheme. May v. Ryan,
746 Fed. Appx. at 506-07; May v. Shinn, 954 F.3d at 1208.

May was convicted on five of seven counts of violations of ARIZ. REV. STAT.
§ 13-1410(A), which provides:
A person commits molestation of a child by intentionally or
knowingly engaging in or causing a person to engage in sexual
contact, except sexual contact with the female breast, with a child who
is under fifteen years of age.
This section required the prosecution to prove that an accused acted with general
criminal intent, whether acting intentionally or knowingly. “Sexual contact” is
defined in Section 13-1401(3), which states:
“Sexual contact” means any direct or indirect touching, fondling or
manipulating of any part of the genitals, anus or female breast by any
part of the body or by any object or causing a person to engage in
such contact.
Finally, the statutory scheme provided that an accused denying a sexual motivation
for a physical act constituting “sexual contact” could rely on an affirmative defense
to contest the prosecution evidence, a provision subsequently repealed:
It is a defense to a prosecution pursuant to § 13-1404 or 13-1410(A)
that the defendant was not motivated by a sexual interest. It is a
defense to a prosecution pursuant to § 13-1404 involving a victim
under fifteen years of age that the defendant was not motivated by a
sexual interest.
ARIZ. REV. STAT. § 13-1407(E) (emphasis added), repealed, 2018 Ariz. Sess.
Laws, ch. 266, §§ 1, 2. See State v. Bolivar, 477 P.3d 672, 688-89, n. 11 (Ariz.
5

2020).

May argues that the Arizona child molestation statutory scheme is

unconstitutional because it shifted the burden to the defense to disprove that he
acted with a sexual interest, contrary to Mullaney v. Wilbur, 421 U.S. 684 (1975).
Petitioner May was sentenced to 15-year terms on each of the five
convictions ordered to be served consecutively, for a 75-year sentence. May v.
Ryan, 245 F. Supp. 3d at 1151.
A.

Trial counsel’s deficient performance
The District Court granted relief based on trial counsel’s failure to challenge

the constitutionality of the Arizona statutory scheme that expressly shifted the
burden to the accused to disprove that his alleged physical acts were not motivated
by a sexual interest, the affirmative defense provided by Section 13-1407(E),
applicable at the time of May’s charged offenses.
1.

The Ninth Circuit’s decision reversing the grant of relief

In rejecting the District Court’s holding that trial counsel failed to provide
effective assistance, the Ninth Circuit panel explained:
Given the long-standing status of the law in Arizona that the State is
not required to prove sexual intent to successfully prosecute a
defendant for child molestation, see State v. Sanderson, 182 Ariz. 534,
898 P.2d 483, 491 (Ariz. Ct. App. 1995), which provided the
background for the “prevailing professional practice at the time of the
trial,” Bobby v. Van Hook, 558 U.S. 4, 8 (2009) (per curiam), we
cannot conclude that trial counsel’s failure to object to the
constitutionality of the statute placing the burden of proving lack of
intent on the defendant fell “below an objective standard of
reasonableness,” Strickland, 466 U.S. at 688.
6

766 Fed. Appx. at 506-07 (emphasis added). The Ninth Circuit relied on the
decision of Division 1, Department B of the Arizona Court of Appeals, State v.
Sanderson, rendered in 1995, in holding that counsel provided effective
representation in not challenging the express shifting of the burden of proof to the
defense to disprove that his acts were motivated by sexual interest. It then cited in
a footnote two Arizona decisions issued after May’s trial to confirm its conclusion
that counsel met the Arizona standard of practice at the 2007 jury trial, decisions
that obviously could not have informed counsel’s understanding of acceptable
practice at the time of trial:
Two Arizona decisions issued after May’s trial confirmed that
Arizona courts approved of the approach taken by the statutory
scheme under which May was prosecuted, which required the
defendant to prove any affirmative defense by a preponderance of the
evidence, including lack of sexual intent. See State v. Holle, 240 Ariz.
300, 379 P.3d 197, 202 (Ariz. 2016); State v. Simpson, 217 Ariz. 326,
173 P.3d 1027, 1030 (Ariz. Ct. App. 2007).
766 Fed. Appx. at 506, n. 1.
What the Ninth Circuit refused to do in reviewing the habeas court’s grant of
relief was to consider whether the Arizona statutory scheme violated May’s right
to due process of law in imposing on the burden on an individual accused of child
molestation to prove that he acted without sexual motivation. Nor, did it engage
in an appropriate degree of analysis of the Sanderson court’s summary finding that
Mullaney v. Wilbur did not require rejection of the imposition of the burden of
7

disproving sexual motivation on May because this burden operated as an
affirmative defense under state law and did not recognize a presumption that the
prosecution had proved that the accused acted with sexual intent when the accused
failed to prove the affirmative defense.. Instead, the Ninth Circuit panel relied on a
single panel of the Arizona Court of Appeals referencing a prior statute that did not
require the defendant to disprove that he acted with sexual intent as an affirmative
defense, but also did not require the State to prove that the accused acted with
sexual intent. 898 P.2d at 491. Two years after Sanderson the legislature required
defendants to carry the burden of proof on all affirmative defenses. May v. Ryan,
245 F. Supp. 3d at 1155 (1997 Ariz. Sess. Laws, ch. 136, § 4; Ariz. Rev. Stat. §
13–205(A) (2006).
The Ninth Circuit panel found that counsel’s failure to challenge the
statutory structure as violative of due process of law, did not fall below “an
objective standard of reasonableness.” It relied on Bobby v. Van Hook, 558 U.S. 4,
8 (2009), in concluding that trial counsel was required only to perform within the
standard of reasonable practice at the time of his representation. The issue there,
however, involved a retroactive application of professional standards for
performance in capital cases adopted by the ABA eighteen years after the 1985
trial, significantly expanding upon counsel’s obligations in earlier pronouncements
and virtually holding that the expanded expectations for counsel’s performance
8

were mandatory. Id. at 7-8. Particularly important in this regard is that fact that
counsel in Sanderson had failed to preserve error on the Mullaney challenge
argued on appeal:
The defendant asserts that these statutes effectively created a
presumption regarding the existence of sexual motivation which he
was required to disprove. He argues that this violated due process. See
Mullaney v. Wilbur, 421 U.S. 684, 95 S.Ct. 1881, 44 L.Ed.2d 508
(1975). This constitutional argument was not raised in the trial court
and, as a result, has been waived on appeal.
Sanderson, 898 P.2d at 491. Although the court rejected the due process claim
under Mullaney, this disposition hardly established a norm for reasonable
professional practice governing counsel’s performance at May’s 2007 prosecution,
other than the requirement that counsel preserve error to avoid procedural default
of the client’s constitutional claim.
It is this Court--not a panel of the Arizona Court of Appeals--that has the
ultimate authority and responsibility for interpretation and application of federal
constitutional protections. Michigan v. Long, 463 U.S. 1032, 1042, esp. n. 8
(1983). In federal habeas actions, the decisions of the Court are controlling in the
determination of whether state courts have deviated by issuing rulings contrary to
or departing unreasonably from this Court’s precedents. 28 U.S.C. § 2254(d)(1)–
(2) (2018).

At the time of May’s trial, the single authority noted by the Ninth

Circuit considering the possible merit to a burden shifting claim based on Mullaney
v. Wilbur, was Sanderson.

The panel relied on that single decision of an
9

intermediate state court to rationalize that trial counsel’s failure to challenge the
burden shifting statutory scheme was acceptable in terms of reasonable practice by
defense counsel. It then deferred to the state post-conviction courts’ finding that
counsel’s failure did not demonstrate deficient performance under Strickland to
avoid consideration of the merits of the Mullaney challenge because there was no
need to go further under Strickland to determine whether there was a reasonable
probability that the Mullaney argument would prevail, meeting Strickland’s second
prong. This legal “Catch 22” reflects a perversion in appellate process, permitting
a reviewing court to avoid an uncomfortable decision on the merits of a claim by
holding that the claim had not been preserved, yet excusing the deficiency
evidenced by the failure to preserve error because a lower court had already
addressed the claim, ruling adversely to the accused’s claim.
2.

Counsel’s explanation for his failure to contest the statutory scheme
on due process grounds

Trial counsel testified at the evidentiary hearing conducted on May’s state
post-conviction relief. [State post-conviction relief hg. TR/5; APP. 290, 293]. He
testified that he questioned the constitutionality of the child molestation statute and
the shift in the burden of proof to require the defendant to disprove that he acted
with sexual motivation. [TR/19; APP. 294]. He admitted, however, that he did not
file a motion challenging the constitutionality of the statute, although he did
request a jury instruction addressing the burden. [TR/19-20; APP. 294-95]. The
10

State then offered counsel’s sworn Declaration, which included the following:
3. Before the May case, I had wide experience representing clients
charged with sex offenses.
[APP. 299]
28. Throughout the case, I believed that the State had the burden of
proving the sexual nature of the crime with which Mr. May was
charged. I was also aware that the statute under which he was charged
had been recently amended and the State was arguing the statute as
amended created a purported shifting in the burden of proof to the
defense to disprove a presumption of sexual motivation.
29. While I believed such a shift was fundamentally wrong, I did not
cite any specific authority to support that belief: because the recently
amended statute had not yet been the subject of any interpretive
appellate opinion of which I was aware. Accordingly, I never wrote
any motion or memorandum for the court on this specific issue,
though I submitted a requested jury instruction involving the issue.
30. Beyond my fundamental belief that this shift in the burden of
proof was fundamentally wrong, I was not aware of any supporting
legal authorities, other than the Constitution, that might have been
used in written briefing on the issue.
[APP. 304-05]. Counsel’s only action addressing the shifting burden of proof to
his client to disprove that he acted without sexual motivation was to request an
instruction advising jurors that the State bore the burden of proof. The court of
appeals denied relief on his argument on direct appeal, State v. May, 2008 WL
29171111, Not Reported in P.3d (Ariz. App. 2008), affirmed [APP. 262, 264-66]
(no error by trial court in instructing jury on affirmative defense of lack of sexual
motivation in child solicitation prosecution), and the Arizona Supreme Court
11

denied discretionary review. State v. May, No. CR-08-0281-PR (Ariz. Feb. 9,
2000), Petition for Review to Arizona Supreme Court—Denied [APP. 261].
3.

The “quintessential example of unreasonable performance”

Counsel conceded that he took no action the shifting of the burden to the
accused to disprove that he acted with the required criminal intent and demonstrate
that he did not act with sexual motivation because he was “not aware of any
supporting legal authorities, other than the Constitution.’ Yet, the Sanderson court
cited Mullaney v. Wilbur in rejecting the argument that the prosecution’s effective
reliance on a presumption to prove an element of its case violated due process.
898 P.2d at 491.
Moreover, Arizona courts have consistently recognized Mullaney and its
significance. See, e.g., State v. Jensen, 785 P.2d 781, 786 (Ariz. 1987); State v.
Moya, 672 P.2d 964, 966-67 (Ariz. 1983); State v. Mincey, 636 P.2d 637, 645
(Ariz. 1981); and Norton v. Superior Court in and for County of Maricopa, 829
P.2d 345, 347 (Ariz. App. 1992) (all recognizing Mullaney rule against shifting
burden of proof on element of the offense to accused as violative of due process).
Thus, while claiming expertise in sex cases [Declaration, ¶¶ 3, 12; APP. 299,
300-01], and his opinion, as an experienced attorney, that the Arizona statutory
scheme violated due process by requiring his client to prove that he did not act
with sexual motivation, trial counsel did not file a motion challenging the scheme
12

on federal constitutional grounds. He did not do so because he was not aware of
any case law that he could cite in a “written brief” supporting the challenge. Nor,
did he apparently engage in the most basic legal research that would have disclosed
Mullaney or even, Sanderson, which would have logically led him to Mullaney and
Patterson v. New York, 432 U.S. 177 (1977), upon which the Sanderson court
relied. 898 P.2d at 491.
Additionally, had trial counsel read Sanderson in preparing to defend May,
he would necessarily have realized that a failure to file a motion contesting the
statutory scheme on due process grounds would result in a procedural default of
the constitutional claim. 898 P.2d at 481. Instead, May was limited on appeal to
arguing—unsuccessfully--that the trial court erred in instructing jurors on the
affirmative defense requiring him to prove that he lack of sexual interest in
touching the complainants. State v. May, 1-CA-CR 07-0144 (July 24, 2008),
Memorandum [APP. 264-66].
May’s ineffectiveness claim was not one in which trial counsel faced
alternative options in terms of defenses or trial strategy, viewed in hindsight
because the strategy pursued by counsel proved to be unsuccessful. Strickland
warns against retrospective judgments in assessing constitutional effectiveness
when counsel’s decisionmaking is critical because so many decisions confronting
defense counsel may, in fact, be reasonable in light of the facts of an individual
13

case. 466 U.S. at 688-89.

In May’s case, however, there was no reasonable

strategic alternative that might have ultimately proved more favorable than one
chosen by counsel. There was, moreover, no possible downside to challenging the
constitutionality of the statutory scheme under which May was convicted. Instead,
a challenge would have served to protect May’s option of pursuing relief on appeal
in the state courts, and if unsuccessful, in this Court by petitioning for certiorari, or
be seeking relief in federal habeas corpus having exhausted state remedies in
losing on the merits in the state direct appeal or post-conviction process. In short,
this is not a case in which counsel’s explanation for his failure to pursue a
particular course of action required deference, assuming that the option was
“within the range of professionally reasonable judgments.” 466 U.S. at 691.
The significance of a challenge to the constitutionality of a criminal statute
cannot be understated. A conviction based on an unconstitutional statute scheme
warrants relief, as the Court explained in holding that a federal defendant pleading
guilty still does not waive the right to challenge the statute under which he has
been convicted on direct appeal in Class v. United States, 138 S.Ct. 798, 803
(2018). The Court’s holding was limited in two important respects: first, it applied
only to a constitutional challenge made by federal defendants; and second, it
applied only to a challenge made on direct appeal. It is not certain that a state
court defendant would have a similar right to challenge a statute on federal
14

constitutional grounds on a plea of guilty. However, absent application of a state
procedural rule providing for an express waiver of the claim, it is difficult to
comprehend how an accused could ever waive a claim that the law upon which the
conviction rests is, in fact, unconstitutional, thus somehow validating the
conviction by waiver. May was convicted following jury trial, not upon a guilty
plea and his ability to contest the validity of the Arizona affirmative defense was
procedural defaulted due to counsel’s inaction.
Here, trial counsel’s failure to protect May’s interest in contesting the
statutory scheme under which he was convicted by preserving his claim for relief
based on constitutional error reflects the same kind of “unreasonable performance”
warranting relief in Hinton v. Alabama, 571 U.S. 263 (2014). In Hinton, counsel
inexplicably refused the trial court’s offer of additional funds to obtain assistance
of a qualified expert witness, id. at 265, instead, proceeding to a capital trial with
an unqualified “expert” whose testimony was shredded by the prosecution on
cross-examination, leading to Hinton’s conviction and death sentence. Id. at 269.
On review from denial of post-conviction relief by the state courts, the Court
discussed the obligation of counsel to properly investigate the case and applicable
law. Hinton’s counsel failed to research state law that should have led him to
accept the trial court’s offer to obtain assistance from a qualified expert. Id. at 274.
In finding counsel’s performance unreasonable, the Court explained:
15

An attorney’s ignorance of a point of law that is fundamental to his
case combined with his failure to perform basic research on that point
is a quintessential example of unreasonable performance under
Strickland.
May’s counsel was not ignorant of the critical point regarding the prosecution’s
burden of proof. He understood the constitutional issue involving the shifting of
the burden to his client to disprove that he acted with a sexual motivation—or
sexual intent. Instead, he simply failed to take necessary action to preserve May’s
right to due process under the Fourteenth Amendment. Hinton did not impose
some requirement for diligence retroactively, as in Bobby v. Van Hook; counsel’s
duty to investigate was grounded in the decisions in Williams v. Taylor, 529 U.S.
362, 359 (2000) and Kimmelman v. Morrison, 475 U.S. 365, 385 (1986). Those
decisions similarly described the requirements for reasonable performance by
counsel when May was prosecuted in 2007.
The state post-conviction court and Ninth Circuit panel dispositions finding
that trial counsel’s performance did not meet the first prong of Strickland requiring
May to demonstrate deficient performance by counsel. In light of Hinton and other
decisions of this Court, the deference seemingly accorded counsel’s wholly
inadequate explanation for his failure to preserve May’s constitutional argument,
reflects a conclusion contrary to this Court’s precedents or an unreasonable
application of precedent, meeting the test for federal habeas relief pursuant to 28
U.S.C. § 2254(d)(1) or (2).
16

B.

A “reasonable probability of a different outcome” of the proceeding
The prejudice test required to establish a Sixth Amendment violation under

Strickland requires a showing that but for counsel’s errors or deficient performance
there would have been a reasonable probability of a different outcome of the
proceeding. 466 U.S. at 694. First, had counsel challenged the statutory scheme as
unconstitutional May’s due process claim arising from the impermissible burden
shifting would have been preserved for review on direct appeal and for federal
review without being subject to a state rule of procedural default. On the merits of
the due process claim, moreover, there would have been a reasonable probability
of a different outcome based on the sheer weakness of analysis and conclusions of
the state courts given deference by the Ninth Circuit panel. The legal theory
advanced by the Sanderson court; subsequently embraced by the Arizona Supreme
Court in State v. Holle, 379 P.3d 197, 201-02 (Ariz. 2016); and afforded deference
by the circuit panel, was that Section 13-1407(E) recognizes an affirmative defense
permitting an accused charged with child molestation to prove, by a preponderance
of evidence, that the accused’s act in engaging in sexual contact by the:
. . . direct or indirect touching, fondling or manipulating of any part of
the genitals, anus or female breast by any part of the body . . . .
as defined in Section 13-1401(3), was not motivated by a sexual interest. The state
courts held that this characterization of an affirmative defense was consistent with
Patterson.
17

Patterson, however, distinguished the New York homicide statute from
Maine’s murder with malice law reviewed in Mullaney, referring to the lack of any
reference to the accused’s motivation apart from intent to cause the death of
another person and a second element of second degree murder, that the accused’s
act did cause that death, and noted that the New York statute did not require proof
that the accused acted with malice, the key intent element proving murder
committed with malice under Maine law. 432 U.S. at 198. In Mullaney, the failure
of the accused to disprove that he acted with the requisite malice necessary for the
prosecutor to sustain its burden of proof resulted in the prosecution benefitting
from an impermissible implied presumption establishing that the killing was done
with malice. This effectively resulted in a shift in the burden of proof to the
accused to negate this essential element of the prosecution’s case in violation of
due process. Patterson, 432 U.S. at 215.
Section 13-1410(A) required the prosecution to prove that May molested the
complainants “by intentionally or knowingly engaging in or causing a person to
engage in sexual contact.”

Inclusion of the reference to “sexual contact”

necessarily injected an element of intent in the statutory definition of the
molestation offense. Failure of an accused to disprove sexual motivation resulted
in the prosecution meeting its burden of proof that the accused’s improper
“touching, fondling or manipulating any part of the genitals, anus or female breast
18

by any part of the body.” The prosecution benefitted from the assignment of the
burden to disprove sexual motivation or intent under Section 13-1410(A) as an
implied presumption that the sexual motivation of the accused had been proved.
This implied presumption operated just the failure of the accused charged with
murder in Maine to prove that he acted “in the heat of passion on sudden
provocation,” permitted the prosecution to prove its case by the presumption that
the accused’s failure established that the offense was murder committed with
malice instead of the lesser offense of manslaughter.
While the Sanderson court dismissed the applicability of Mullaney on the
argument that the affirmative defense set forth in Section 13-1407(E), 898 P.2d at
491, the Arizona Supreme Court never mentioned Mullaney in rejecting the burden
shifting due process violation argument in Holle, the 3-2 decision in which the
majority upheld the affirmative defense suggesting it as consistent with Patterson.
379 P.3d at 205. The Holle majority conceded that Section 13-1410(A) required
proof that the accused “intentionally or knowingly engage[ed” in sexual contact,
379 P.3d at 199, while then explaining that the definition of the offense did “not
mention, imply, or require sexual motivation.” Instead, the majority explained:
And although the definition of “sexual contact” is broad as it includes
“any direct or indirect touching, fondling or manipulating” of
another’s private parts, it does not implicate the defendant’s
motivation.
379 P.3d at 303 (emphasis in original).
19

The Holle dissenters concluded the

statutory scheme was impermissibly vague, noting the Patterson Court’s warning:
Although states have discretion in assigning to defendants the burden
of proving affirmative defenses, the Supreme Court has noted “there
are obviously constitutional limits beyond which the States may not
go in this regard.”
379 P.3d at 209, citing Patterson, 432 U.S at 209-10. They concluded, however,
as the intermediate court had that the error was a controlled by Neder v. United
States, 527 U.S. 1, 10-11 (1999), involving omission of a necessary element of the
offense that could be deemed harmless because of the overwhelming evidence of
Holle’s guilt. 379 P.3d at 313; State v. Holle, 358 P.3d 639, 648 (Ariz. App. 2015).
The state courts wholly failed to appreciate the significance of Mullaney and
Patterson, taken together, as precedent critical to assessing the constitutional
implications of assignment of the burden of proving lack of sexual motivation to
the accused under the Arizona statutory scheme. In contrast to the state court
construction given deference by the Ninth Circuit, Judge Wake’s thorough and
completely documented analysis decimated the state court decisions. His review
of Arizona law and analysis of the statutory scheme relying on the affirmative
defense demonstrated that the scheme could not survive Mullaney and Patterson.
Nevertheless, Judge Wake’s skillful reasoning was avoided by the Ninth Circuit in
not addressing Strickland’s prejudice prong by deferring to the state postconviction finding that trial counsel’s performance was not defective. 245 F. Supp.
3d at 1154-72. In light of Hinton’s admonition that failure to investigate the law
20

applicable to the case is a quintessential example of unreasonable performance the
Ninth Circuit’s deference to the state courts’ conclusion was wholly unjustified.
Yet, the state post-conviction court rejected the ineffective assistance claim,
holding, in part, that in order to meet Strickland’s probable prejudice prong:
Defendant must show a reasonable likelihood that a challenge to the
constitutionality of the child molestation statute would have been
successful in order to demonstrate prejudice. State v. Berryman, 178
Ariz. 617, 622, 875 P.2d 850, 855.
State v. May, No. CR2006-030290-001 SE (Ariz. Super. Nov. 10, 2011), Order
Denying Post-Conviction Relief [APP. 251, 255, 257]. The post-conviction court
followed the language of Berryman, concluding:
Defendant has failed to show a reasonable likelihood that either his
trial or appellate attorney would have been successful in challenging
the constitutionality of the child molestation statute of the State of
Arizona and has failed to establish prejudice.
[APP. 255]. Berryman cited Kimmelman v. Morrison, 477 U.S. 365 (1996), but in
doing so altered the test for proof of prejudice. Strickland never speaks in terms of
“a reasonable likelihood” that counsel would have been successful in challenging
the statutory scheme. The test for prejudice is “a reasonable probability of a
different outcome” in the proceeding. 477 U.S. at 375; Strickland, 466 U.S. at 694.
The District Court’s order granting May federal habeas relief; the dissenting
of two justices of the state supreme court in Holle; and the decision of the state
court of appeals agreeing with the challenge to the statutory scheme shifting the
21

burden to disprove sexual intent to the accused, all demonstrate that there was a
reasonable probability that a challenge to the burden shifting statutory scheme
would have resulted in a different outcome had trial counsel asserted a due process
challenge preserving the issue for review in the direct appeal process.
Thus, the state post-conviction court subtly altered the prejudice burden in
Strickland to focus on a failure to prove success, instead of requiring proof of only
a reasonable probability of a different outcome, reflecting a failure to consider
May’s ineffective assistance claim in strict compliance with the Court’s precedent.
It did so while also failing to apply the strict requirement for counsel’s professional
competence in light of acceptable performance in the community articulated in
Hinton. Instead, it ignored the “quintessential example of unreasonable
performance” in counsel’s failure to assert his client’s claim of due process
violation, a substantial and meritorious claim demonstrated by those jurists who
did not subscribe to the notion that the affirmative defense under Section 131407(E) was consistent with the Court’s holding in Patterson.
The state post-conviction court decision ultimately influenced the Ninth
Circuit panel’s rejection of the skillful analysis by the federal habeas court based
on undue deference to its denial of relief. Its decision was summarily upheld on
appeal without discussion. State v. May, 2012 WL 3877855, Not Published in P.3d
(Ariz. App. Sept. 12, 2012), Petition for Review, Review Granted, Relief Denied
22

[APP. 242, 247-49, esp. ¶14]. The state supreme court denied review. State v.
May, No. CR-12-0416-PR (Ariz. April 24, 2013), Order Denying Petition for
Review [APP. 241]. The Ninth Circuit failed to assess whether the state courts’
rejection of May’s ineffective assistance claim based on trial counsel’s failure to
attempt to protect his right to due process of law in not challenging the Arizona
burden shifting statutory scheme.
CONCLUSION
NARSOL moves the Court grant certiorari to review May’s claims in his
petition, particularly his third question presented addressed in this amicus brief.
Review is warranted for the following reasons:
1.

The deference afforded the decision of the Arizona Court of Appeals

in finding counsel’s performance reasonable by the Ninth Circuit fails to comply
with the Court’s explanation of counsel’s duty to investigate the law governing the
case in Hinton v. Alabama, supra;
2.

The state courts’ conclusion that the Arizona child molestation

scheme, including designation of a statutory affirmative defense requiring an
accused to prove that their actions were not based on a sexual motivation, is
contrary to, or reflects unreasonable application of the decisions of this Court in
Mullaney v. Wilbur and Patterson v. New York, supra; and
3.

The 75-year prison term imposed on Petitioner May based on the
23

order that the 15-year terms imposed on the five counts on which the jury
convicted be served consecutively reflects a substantial violation of due process
resulting from his convictions on an unconstitutional statute, as well as convictions
and sentences imposed on other Arizona defendants convicted under this statute.
NARSOL respectfully moves the Court reverse the judgment of the Ninth
Circuit and afford plenary review of the issue of unconstitutional burden shifting
under the Arizona statutory scheme, or alternatively grant the petition, vacate the
judgment of the Ninth Circuit and remand for reconsideration of its decision in
light of the decisions of this Court in Mullaney, Patterson, and Hinton, supra.
Respectfully submitted this 10th day of March, 2021.
/s/ J. Thomas Sullivan
J. Thomas Sullivan
Member of the Bar of the
Supreme Court of the United States
1122 West Capitol
Little Rock, Arkansas 72201
(501) 376-6277
sullivanatty@gmail.com

24

CERTIFICATE OF COMPLIANCE
I, J. Thomas Sullivan, counsel for NARSOL, amicus curiae, hereby certify that the
Brief for the Amicus Curiae contains a total of 5,838 words, including footnotes,
based on information supplied by Microsoft Word, Word Count function,
excluding cover, table of contents, table of cases and signature with counsel’s
professional information.
/s/ J. Thomas Sullivan
J. THOMAS SULLIVAN
MEMBER OF THE BAR OF THE
SUPREME COURT OF THE UNITED STATES

Counsel of Record
P.O. Box 17007
Little Rock, Arkansas 72222
501/376-6277
sullivanatty@gmail.com
Attorney for Amicus Curiae
National Association for
Rational Sexual Offense Laws

25

CERTIFICATE OF SERVICE
I, J. Thomas Sullivan, an attorney admitted to this Court, hereby certify that,
pursuant to the agreement of the parties dated January 7, 2021, a copy of this Brief
for the Amicus Curiae was served by electronic mail (jim.nielsen@azag.gov) on
Counsel for Respondents—Jim Nielsen, Arizona Attorney General’s Office, 2005
N. Central Avenue, Phoenix, Arizona, 85004, (602) 542-8587. A copy was also
served by electronic mail (erica.dubno@fahringerlaw.com) on Counsel for
Petitioner—Erica T. Dubno, Fahringer & Dubno, 43 West 43rd Street, Suite 261,
New York, New York 10036, (212) 319-5351. All parties required to be served
have been served.
I further certify that one copy of this Brief for the Amicus Curiae was filed
electronically and by Priority Mail, Two Day Service, to the U.S. Supreme Court.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 10, 2021.
/s/ J. Thomas Sullivan
J. THOMAS SULLIVAN
MEMBER OF THE BAR OF THE
SUPREME COURT OF THE UNITED STATES

Counsel of Record
P.O. Box 17007
Little Rock, Arkansas 72222
501/376-6277
sullivanatty@gmail.com
Attorney for Amicus Curiae
National Association for
Rational Sexual Offense Laws

26

